No.

IN
THE
SUPREME COURT OF THE UNITED STATES

Thomas D. Holmes, PETITIONER
vs.
Randy Gibbs, Warden, Iowa State Penitentiary,
RESPONDENT
MOTION FOR LEAVE TO PROCEED

IN FORMA PAUPERIS
The petitioner asks leave to ﬁle the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner states the following:
Petitioner ha s n o t previously been granted leave to proceed in forma
pauperis in any other court.
1.

2.
Petitioner’s afﬁdavit or declaration in support of this motion is attached
hereto.

/S/ Thomas D. Holmes
Thomas D. Holmes, Petitioner
/S/ Bruce H. Stoltze
Bruce H. Stoltze
300 Walnut St, Suite 260
Des Moines, Iowa 50309
Telephone: (515) 244-1473
Email: Bruce.Stoltze@stoltzelaw.com
COUNSEL FOR PETITIONER
THOMAS D. HOLMES

